Audit Report




OIG-14-042
RECOVERY ACT: Audit of Delaware State Housing Authority’s
Payment Under 1602 Program
July 9, 2014




Office of
Inspector General
Department of the Treasury
Contents



Audit Report.................................................................................................. 1

    Results in Brief ............................................................................................. 1

    Background ................................................................................................. 2

    Audit Results ............................................................................................... 5


Appendices

    Appendix     1:      Objectives, Scope, and Methodology ....................................... 11
    Appendix     2:      Grantees Terms and Conditions .............................................. 12
    Appendix     3:      Delaware State Housing Authority Response………………………. 17
    Appendix     4:      Management Response ......................................................... 18
    Appendix     5:      Major Contributors to This Report ........................................... 19
    Appendix     6:      Report Distribution ................................................................ 20


Abbreviations

    DSHA                 Delaware State Housing Authority
    IRC                  Internal Revenue Code
    OFAS                 Office of the Fiscal Assistant Secretary
    OIG                  Office of Inspector General
    QAP                  Qualified Allocation Plan




                         Audit of Delaware State Housing Authority’s Payment                             Page i
                         Under 1602 Program (OIG-14-042)
THIS PAGE INTENTIONALLY LEFT BLANK
                                                                                    Audit
OIG
The Department of the Treasury
                                                                                    Report
Office of Inspector General




                      July 9, 2014

                      David Lebryk
                      Fiscal Assistant Secretary

                      As part of our ongoing oversight of the Department of the
                      Treasury’s (Treasury) Payments to States for Low-Income Housing
                      Projects in Lieu of Low-Income Housing Credits for 2009 (1602
                      Program), 1 authorized by Section 1602 of the American Recovery
                      and Reinvestment Act of 2009 (Recovery Act), 2 we are conducting
                      audits of awards made to selected state housing credit agencies.
                      The objective of these audits is to assess whether the agencies
                      awarded funds under Treasury’s 1602 Program complied with the
                      program’s requirements contained in the “Grantee Terms and
                      Conditions” (hereinafter terms and conditions). In this report, we
                      provided our assessment of Delaware State Housing Authority’s
                      (DSHA) compliance with the 1602 Program requirements.
                      Appendix 1 provides a more detailed description of our audit
                      objectives, scope, and methodology.


Results in Brief

                      We found that DSHA generally complied with Treasury’s 1602
                      Program terms and conditions which capture the eligibility and
                      compliance requirements set forth in both Section 42 of the
                      Internal Revenue Code (IRC) 3 and Section 1602 of the Recovery
                      Act. That is, DSHA substantially met the applicable requirements
                      for receiving its 1602 Program award as well as requirements for
                      subawarding those funds to low-income housing projects but was
                      unable to fully comply with a specific Treasury 1602 Program

1
  Treasury’s Office of the Fiscal Assistant Secretary (OFAS) administers this program.
2
  Pub. L. No. 111-5, 123 Stat. 362-364 (Feb. 17, 2009). Under section 1602 of the Recovery Act,
Treasury shall make a grant to the housing credit agency of each State in an amount equal to such
State’s low-income housing grant election amount.
3
  26 U.S.C.§42 “Low-Income Housing Credit,”
(http://www.treasury.gov/initiatives/Documents/LIH_application-package.pdf


                      Audit of Delaware State Housing Authority’s Payment                  Page 1
                      Under 1602 Program (OIG-14-042)
                        requirement that each state housing credit agency open a new
                        account with a financial institution for the purpose of receiving and
                        disbursing 1602 Program funds since this would have been
                        inconsistent with Delaware law. However, we determined that
                        DSHA met OFAS’ overall financial management requirement by
                        tracking 1602 Program funds in a separate general ledger account.

                        DSHA also established a process for monitoring the long-term
                        viability of projects and their compliance with 1602 Program
                        requirements and met Treasury reporting requirements also required
                        by the terms and conditions. With that, we want to emphasize the
                        need for continued diligence on the part of DSHA to ensure
                        compliance with the terms and conditions over the remaining
                        15-year compliance period.

                        We provided our report to DSHA for the purpose of incorporating
                        management’s views. In a written response, DSHA acknowledged
                        our consideration of Delaware law in preventing the agency from
                        establishing a separate account for the receipt and disbursement of
                        1602 Program funds as required by the program. It also stated that
                        it would actively seek a waiver from such requirement in the future
                        as allowed by the 1602 Program. DSHA management also
                        expressed its commitment to continue its compliance monitoring
                        and asset management over the remaining 15-year compliance
                        period to ensure that approved housing projects maintain their
                        eligibility status. DSHA’s response is provided in appendix 3.

                        After incorporating DSHA’s response into this report, we provided
                        it to Treasury management for comment. Treasury management
                        also concurred with our audit results; its response is provided in
                        appendix 4.


Background

                        The low-income housing tax credit program codified in Section 42
                        of the IRC was authorized by the Tax Reform Act of 1986. 4 The
                        tax credit is an incentive for individuals and corporations to invest
                        in the construction or rehabilitation of low income housing. The tax
                        credit provides the investor a dollar-for-dollar reduction in personal

4
    Pub. L. No. 99-514, Stat. 2189 (Oct. 22, 1986)

                        Audit of Delaware State Housing Authority’s Payment          Page 2
                        Under 1602 Program (OIG-14-042)
                       or corporate federal income tax liability for a 10-year period for
                       projects meeting program requirements.

                       The Recovery Act was signed into law to provide relief to the
                       ongoing economic crisis. Part of that relief, provided in Section
                       1602 of the Recovery Act, consisted of grants awarded to states 5
                       for low-income housing projects in lieu of low-income housing
                       credit allocations. The purpose of Section 1602 was to fill the gap
                       left by the reduced demand for low-income housing tax credits that
                       would enable low-income housing projects to continue or begin in
                       cases where developers could not obtain private investment, as
                       well as, increase the availability of affordable housing. The
                       Secretary of the Treasury is responsible for carrying out the
                       requirements of Section 1602.

                       Eligibility Under the 1602 Program

                       Under the Recovery Act, state housing credit agencies were
                       allowed to exchange a portion of their low-income housing credits
                       for Section1602 funds. The maximum funds available to a state
                       could not exceed its “Low-income Housing Grant Election
                       Amount” 6 as determined under Section 1602. In turn, state
                       housing credit agencies would disburse funds to eligible
                       subawardees to help finance either the construction or the
                       acquisition and rehabilitation of qualified low-income housing
                       projects. Section 1602 also provided that subawarded projects be
                       subject to the same eligibility and compliance requirements as the
                       low-income housing credits found in Section 42 of the IRC. In
                       addition to following the IRC Section 42 eligibility and compliance
                       requirements, Section 1602 required that state housing credit
                       agencies:



5
  According to Treasury’s “Grantee Terms and Conditions.“… a. The grantee is the housing credit
agency for one of the 50 States, the District of Columbia, the Commonwealth of Puerto Rico, the Virgin
Islands, American Samoa, Guam, or the Northern Mariana Islands which files Form 8610, Annual Low-
Income Housing Credit Agencies Report with the Internal Revenue Service.”
6
  “Low-income Housing Grant Election Amount” may not exceed 85 percent of the sum of (1) 10 times
(a) the unused State housing credit ceiling (if any) for calendar year 2008 and (b) the amount of State
housing credit ceiling returned in 2009, plus (2) 10 times 40 percent of (a) the greater of $2.30
multiplied by the State population or $2,665,000 and (b) unused housing credit carryover allocated to
the State in the 2009 National Pool.

                       Audit of Delaware State Housing Authority’s Payment                   Page 3
                       Under 1602 Program (OIG-14-042)
                          (1) establish a process to ensure that applicants who were
                              allocated low-income housing credits demonstrate “good
                              faith efforts” to obtain investment commitments for credits
                              elsewhere;

                          (2) perform asset management functions to ensure subawardee
                              compliance with Section 42 of the IRC and the long-term
                              viability of projects; 7 and

                          (3) recapture funds in the event of subawardees’ non-
                              compliance payable to Treasury.

                      As part of its overall administration of Treasury’s 1602 Program,
                      OFAS developed the terms and conditions of award to identify the
                      eligibility and compliance requirements set forth in both Section 42
                      of the IRC and Section 1602 of the Recovery Act. State housing
                      credit agencies and subawards funded by them are subject to these
                      terms and conditions for the 15-year compliance period. Among
                      the terms and conditions, state housing credit agencies are required
                      to provide financial status and project performance reports
                      quarterly and other applicable reports for ensuring compliance with
                      the terms and conditions of their 1602 Program awards. In its post
                      subaward reporting guidance, OFAS required that state housing
                      credit agencies certify annually that (1) the amount of Section
                      1602 funds subawarded to a project was equal to or less than 85
                      percent of the project’s eligible basis; and (2) funded projects
                      remain qualified projects throughout the 15-year compliance period.
                      Appendix 2 provides the detail contained in OFAS’ terms and
                      conditions for award.

                      Since awards under the 1602 Program are not grants but an
                      exchange of low-income housing credits falling under the
                      requirements of Section 42 of the IRC, they are not required to be
                      covered by the Single Audit Act 8 or the Office of Management and
                      Budget (OMB) Circular No. A-133. 9


7
  Low-income housing projects must be financially feasible and remain viable throughout the 15-year
compliance period required by Section 42 of the IRC.
8
  Pub. L. 98-502, amended by Pub. L. 104-145, Single Audit Act Amendment of 1996
9
  OMB Circular No. A-133, Audits of States, Local Governments and Non-Profit Organizations (June
2007)

                      Audit of Delaware State Housing Authority’s Payment                    Page 4
                      Under 1602 Program (OIG-14-042)
                        Delaware State Housing Authority

                                                                      DSHA is an
                                                                      independent authority
                                                                      in the Executive
                                                                      Department of the
                                                                      State of Delaware
                                                                      which provides
                                                                      financing for housing
                                                                      and other related
                                                                      services to low and
                                                                      moderate income
                                         Millsboro Village            residents of Delaware.
                                                                      DSHA is also
                        responsible for administering Delaware’s low-income housing tax
                        credit program and allocates credits based on the selection criteria
                        set forth in its Qualified Allocation Plan (QAP). In 2009, DSHA
                        exchanged a portion of its low-income housing credits for
                        $20,550,433 under the 1602 Program which helped fund six
                        projects that were stalled due to fallout from the low-income
                        housing tax credit equity market. As a result, a total of 401
                        housing units were created and set aside as low-income for
                        qualifying residents throughout Delaware. Projects were placed in-
                        service between September 2009 and July 2013.

                        Although not required by OMB Circular No. A-133, DSHA identified
                        the 1602 Program as one of its major programs and included it on
                        the “Schedule of Expenditures of Federal Awards” in its financial
                        statements for 2010, 2011, and 2012. The auditor 10 reported no
                        findings or issues related to DSHA’s 1602 Program funds in any of
                        the reported years.


Audit Results

                        We found that DSHA generally complied with the terms and
                        conditions of its 1602 Program award. That is, DSHA substantially
                        met the requirements for receiving its 1602 Program award and

10
     Barbacane, Thorton & Company LLP is an independent regional firm located in Wilmington, Delaware.


                        Audit of Delaware State Housing Authority’s Payment                  Page 5
                        Under 1602 Program (OIG-14-042)
                        subawarding those funds to low-income housing projects
                        consistent with requirements contained in Section 42 of the IRC.
                        However, we noted that DSHA was unable to fully comply with a
                        1602 Program specific requirement that each state housing credit
                        agency open a new account with a financial institution for the
                        purpose of receiving and disbursing 1602 Program funds. 11
                        Nonetheless, we determined that DSHA met OFAS’ overall financial
                        management requirement by tracking 1602 Program funds in a
                        separate general ledger account.

                        We also noted that DSHA established a process for monitoring the
                        long-term viability of the projects and their compliance with 1602
                        Program requirements, and met reporting requirements also
                        required by OFAS’ terms and conditions. Based on our review of
                        DSHA’s administration and oversight activities, we concluded that
                        the projects funded with 1602 Program funds met the subaward
                        requirements also contained in the 1602 Program terms and
                        conditions.

                        Awarding

                        DSHA requested and was awarded $20,550,433 of 1602 Program
                        funds, the amount equal to DSHA’s low-income housing election
                        amount requested in its application packages. In turn, DSHA
                        subawarded its 1602 Program funds to six eligible low-income
                        housing projects in exchange for tax credits. As required by the
                        1602 Program terms and conditions, DSHA subawarded funds to
                        low-income housing projects which (1) qualified under Section 42
                        of the IRC; (2) demonstrated “good faith efforts” to obtain
                        investments elsewhere, and (3) did not exceed the amounts
                        necessary to make the projects financially feasible and viable
                        throughout the 15-year compliance period.

                        As part of the 1602 Program terms and conditions, awardees must
                        maintain effective control and accountability for 1602 Program
                        funds. In this regard, state housing credit agencies were required to

11
   Grantee Terms and Conditions, “10b. The grantee shall open a new account (Grant Account) with a
financial institution for the purpose of receiving grant election amounts, for making distributions of grant
election amounts to other agencies within the State, and for making subawards.”



                        Audit of Delaware State Housing Authority’s Payment                      Page 6
                        Under 1602 Program (OIG-14-042)
                         open new accounts with financial institutions for receiving and
                         disbursing funds. In November 2009, OFAS inquired of state
                         agencies’ whether or not separate bank accounts for the 1602
                         funds were established, and if not, OFAS would provide the
                         necessary documents for requesting a “variance” (i.e., waiver). At
                         the time, a DSHA official responded that a new account was
                         opened. When we requested the bank statements for review, we
                         discovered that DSHA had not established a separate bank account
                         for its 1602 Program funds nor did it request a variance from
                         OFAS. Upon further inquiry, we were told by a DSHA official that
                         DSHA was not permitted by law to establish an individual bank
                         account for 1602 Program funds as funds were required to flow
                         from the State of Delaware’s bank account. 12 Furthermore, the
                         Office of the Governor required that all “stimulus funds” flow
                         through this bank account and be tracked through Delaware’s
                         financial management systems. With this specific requirement, we
                         verified that a separate account was established in the general
                         ledger to track receipts and disbursements of 1602 Program funds.

                         Based on our review of DSHA’s accounting records, we determined
                         that DSHA met the intent of OFAS’ overall financial management
                         requirement by tracking 1602 Program fund receipts and
                         disbursements separate from other funds as well as maintaining
                         program, financial, and accounting records supporting the proper
                         use of funds.

                         Subawarding

                         Through its tax credit allocation and 1602 Program tax credit
                         exchange processes, DSHA identified six qualified projects which
                         were allocated tax credits in 2007, 2008, and 2009, but were
                         stalled due to the downturn in the low-income housing tax credit
                         equity market. In selecting these projects, DSHA applied its QAP
                         for each respective year. The QAPs established the selection
                         criteria for low-income housing projects, and provided guidance for
                         tax credit allocations and 1602 Program subawards. Based on our
                         review, we noted that DSHA’s QAP complied with the 1602
                         Program terms and conditions which reference Section 42 of the
                         IRC where the statutory provision for QAPs is required. We also
                         determined that DSHA properly allocated low-income housing
12
     Title 29 Delaware Code §2711, “Administration of moneys received from federal grants.”

                         Audit of Delaware State Housing Authority’s Payment                  Page 7
                         Under 1602 Program (OIG-14-042)
                      credits to Section 42 of the IRC qualified low-income housing
                      projects and was compliant with the 1602 Program terms and
                      conditions for subawarding funds to those projects.

                      Furthermore, we found that DSHA ensured that all six
                      subawardees made “good faith efforts” in their attempts to obtain
                      other investment commitments for tax credits in lieu of the 1602
                      Program subawards, and that subawarded amounts did not exceed
                      the amounts necessary to ensure the projects’ financial feasibility
                      and future viability.

                      Compliance and Asset Management

                      Section 1602 of the Recovery Act required state housing credit
                      agencies establish compliance and asset management functions to
                      ensure that subawards comply with Section 42 of the IRC and that
                      low-income housing projects remain viable during the 15-year
                      compliance period. In the case of DSHA, compliance monitoring
                      and asset management functions were already in place prior to the
                      enactment of the 1602 Program because of its role as the
                      administrator of the state’s low-income housing tax credit program.

                      Section 1602 of the Recovery Act required that state housing
                      credit agencies impose conditions and/or restrictions, including
                      recapture requirements, on subawardees to ensure low-income
                      housing projects remain qualified during the 15-year compliance
                      period. OFAS stipulated in its terms and conditions that recapture
                      requirements be included in state credit housing agencies’ written
                      subaward agreements. Furthermore, state housing credit agencies
                      were required by OFAS to have procedures in place for monitoring
                      1602 Program subawardees to identify and correct issues of
                      noncompliance during the compliance period. 13 In the event of
                      noncompliance, state housing credit agencies must impose
                      consequences such as possible state program debarment and the
                      recapture of 1602 Program funds, payable to Treasury.

                      DSHA structured its 1602 Program subawards as tax credit
                      exchange funds, subject to recapture in the event a low-income

13
   Treasury, “Section 1602 - Payments to States for Low-Income Housing Projects in Lieu of Low-
Income Housing Credits for 2009 Recapture Guidance”


                      Audit of Delaware State Housing Authority’s Payment                  Page 8
                      Under 1602 Program (OIG-14-042)
                       building does not remain qualified during the 15-year compliance
                       period. At the time of our audit, 5 of the 6 projects had completed
                       the first year of the 15-year compliance period and DSHA
                       commenced its compliance monitoring of 4 of them by performing
                       on-site inspections of project buildings and units and reviews of
                       project tenant files for Section 42 of the IRC compliance. At least
                       once every 3 years through the end of the 15-year compliance
                       period, DSHA will conduct on-site inspections of all the buildings in
                       each low-income housing development.

                       DSHA’s policy is to perform its asset management function on
                       each 1602 Program project throughout the 15-year compliance
                       period. The asset management function includes reviews of each
                       project’s annual budgets and financial statements and comparative
                       monthly financial reports to determine fiscal health and long-term
                       viability. Also, DSHA requires properties to report monthly financial
                       and resident data, including occupancy and turnover rates into
                       MITAS,14 a web-based compliance reporting database.

                       DSHA’s continuous compliance monitoring and asset management
                       during the remaining years within the 15-year compliance period
                       should ensure 1602 projects maintain qualified low-income
                       buildings.

                       Reporting

                       OFAS requires that state housing credit agencies submit financial
                       status and project performance reports for each low-income
                       housing project on a quarterly basis during the development stage
                       as well as other reports deemed necessary to ensure compliance
                       with provisions of Section 1602. In its post sub-award reporting
                       guidance, OFAS also requires that state housing credit agencies
                       provide two additional certification reports. The first report is to
                       certify each project’s placed in-service date and whether 1602
                       Program funds used were equal to or less than 85 percent of the
                       project’s eligible basis. The second report is required each year
                       thereafter for the project’s annual compliance throughout the 15-
                       year compliance period once the project is placed in service.


14
  DSHA utilizes MITAS, a fully integrated system for data collection of property information, household
data and financial reporting, developed by The MITAS Group.

                       Audit of Delaware State Housing Authority’s Payment                   Page 9
                       Under 1602 Program (OIG-14-042)
At the time of our review, we found that DSHA complied with
OFAS’ reporting requirements. That is, DSHA submitted quarterly
project performance reports during each project’s developmental
stage and annual certification reports after the project was placed
in service.

                                 ******

We appreciate the courtesies and cooperation provided to our staff
during this audit. If you wish to discuss this report, you may
contact me at (202) 927-5400 or Donna Joseph, Deputy Assistant
Inspector General for Financial Management and Information
Technology Audits, at (202) 927-5784. Major contributors to this
report are provided in appendix 5.


/s/

Marla A. Freedman
Assistant Inspector General for Audit




Audit of Delaware State Housing Authority’s Payment        Page 10
Under 1602 Program (OIG-14-042)
Appendix 1
Objectives, Scope, and Methodology




In December 2013, we initiated our audit of the Delaware State
Housing Authority (DSHA) as part of our audits of state housing
credit agencies funded under Treasury’s Grants to States for Low-
Income Housing Projects in Lieu of Low-Income Housing Credit
Allocations for 2009 (1602 Program). The objective of these audits
is to assess whether state housing credit agencies awarded funds
under Treasury’s 1602 Program complied with the program’s
requirements contained in the “Grantee Terms and Conditions”
(hereinafter terms and conditions). The terms and conditions
outline the program requirements for award eligibility, compliance
monitoring and reporting. To meet our objective we assessed
whether DSHA properly received and subawarded 1602 Program
funds, implemented compliance and asset management processes,
and met Treasury’s reporting requirements.

We statistically selected DSHA from the universe of 55 states and
territories receiving 1602 Program funds. In the case of DSHA, we
reviewed the entire universe of six projects and related cash
disbursements representing more than 50 percent of 1602 Program
funds for the six subawards. In performing our work, we visited
DSHA in Dover, Delaware; interviewed key personnel of DSHA;
reviewed documents used to support Delaware’s low-income
housing credit allocation, six approved low-income housing
projects, cash disbursements to projects, and project’s existence;
performed site visits to three properties located in Seaford,
Millsboro and Laurel, Delaware; and assessed DSHA’s compliance
with Treasury’s terms and conditions. We performed our fieldwork
between December 2013 and April 2014.

We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




Audit of Delaware State Housing Authority’s Payment        Page 11
Under 1602 Program (OIG-14-042)
                   Appendix 2
                   Grantee Terms & Conditions




    Grants to States for Low-Income Housing Projects in Lieu of Low-Income Housing
                                   Credits for 2009

                          GRANTEE TERMS AND CONDITIONS

1. Authority
a. Section 1602 of the American Recovery and Reinvestment Tax Act of 2009 (Act) authorizes
the United States Department of the Treasury (Treasury) to issue grants to State housing credit
agencies in lieu of low-income housing credits.

b. The grantee has authority to receive Section 1602 grants.

2. Grantee Eligibility
a. The grantee is the housing credit agency for one of the 50 States, the District of Columbia, the
Commonwealth of Puerto Rico, the Virgin Islands, American Samoa, Guam, or the Northern
Mariana Islands which files Form 8610, Annual Low-Income Housing Credit Agencies Report
with the Internal Revenue Service.

b. The grantee shall be the sole recipient of the Section 1602 funds in the State and must
coordinate with other housing credit agencies within the State (including any constitutional home
rule cities) to determine how much of their 2009 credit ceiling the other agencies would elect to
take in the form of a grant election amount and will provide to those agencies their proportionate
share.

c. The grantee shall enter into written agreement with any other participating housing credit
agencies within the State, binding the participating agency to comply with the terms and
conditions applicable to the grantee or designated state agency in the sections 3 through 10 of
these terms and conditions.

d. The grantee is the party responsible to Treasury for all grant matters.

3. Eligible Projects
a. The grantee shall only select projects for subawards which are qualified low-income buildings
under Section 42 of the Internal Revenue Code (the Code).

b. The grantee must ensure that the subaward is consistent with the requirement of section
42(m)(2) of the Code that the subaward made for a project [building(s)] does not exceed the
amount necessary to ensure the financial feasibility of the project and its viability as a project
throughout the credit period.

4. Use of Grant Funds
a. The grantee is receiving an initial grant election amount. The grantee may apply for additional
grant funds through 2010. If the Treasury Department approves the request, the Treasury
Department will amend the award to increase the grant amount.

                   Audit of Delaware State Housing Authority’s Payment                    Page 12
                   Under 1602 Program (OIG-14-042)
                   Appendix 2
                   Grantee Terms & Conditions




b. The grantee shall use all grant amounts to make subawards, or for transfer to other agencies to
make subawards. The subawards shall be in the form of cash assistance and are not required to
be repaid unless there is a recapture event with respect to the qualified low-income building. The
grantee shall not use grant election amounts for any other purpose, including administrative
costs. The grantee may collect reasonable fees from a subawardee to cover expenses associated
with performance of its duties under Section 1602(c)(3) of the Act, Compliance and Asset
Management. Reasonable fees are amounts customarily charged for the same or similar services
and in no event may exceed costs.

c. The grantee may disburse grant funds to subawardees in 2009 and 2010. The grantee may
disburse grant funds to subawardees in 2011 provided the subaward has been made to the
subawardee on or before December 31, 2010 and the subawardee has, by the close of 2010, paid
or incurred at least 30 percent of the subawardee’s total adjusted basis in land and depreciable
property that is reasonably expected to be part of the low-income housing project for which the
disbursements are made.

d. The subawards shall finance the construction or acquisition and rehabilitation of qualified low-
income buildings in accordance with Section 1602(c) of the Act.

e. The grantee shall make subawards in the same manner and shall be subject to the same
limitations as an allocation of housing credit dollar amount allocated under Section 42(m) of the
Code, except for the additional determinations required in subsection g of this section.

f. Prior to making any subaward, the grantee shall establish a written process for making a
determination that applicants for subawards have demonstrated a good faith effort to obtain
investment commitments for tax credits in lieu of a subaward.

g. Prior to making any subaward, the grantee shall make a determination that the applicant for
the subaward has demonstrated a good faith effort to obtain investment commitments for tax
credits in lieu of the subaward.

5. Written Agreements and Disbursements to Subawardees
a. The grantee shall execute a legally binding written agreement with the entity receiving a
subaward. The grantee and the subawardee must execute the written agreement before any
Section 1602 funds are disbursed to the subawardee.

b. The written agreement must set forth (explicitly, or incorporated by reference) all Section
1602 program requirements, including the requirements of Section 42 of the Code, applicable to
the subaward.

c. The written agreement shall impose conditions or restrictions, including a requirement
providing for recapture, so as to assure that the qualified low-income building remains a
qualified low-income building during the 15-year compliance period. The written agreement may
include the extended low-income housing commitment under Section 42(h)(6)(B) of the Code.

                   Audit of Delaware State Housing Authority’s Payment                 Page 13
                   Under 1602 Program (OIG-14-042)
                   Appendix 2
                   Grantee Terms & Conditions




d. The written agreement shall require the subawardee to provide sufficient information to the
grantee to report on the use of grant funds as required by section 8 of these terms and conditions.

6. Asset Management
a. The grantee shall perform asset management functions so as to ensure compliance with
Section 42 of the Code and the regulations thereunder (including Title 26 Code of Federal
Regulations section 1.42.9), and the long-term viability of the buildings funded by a subaward
under the Act in accordance with Section 1602(c)(3) of the Act.

7. Compliance with the 2009 State Housing Credit Ceiling
a. The grantee shall track (1) the credit equivalent of all grant election amounts to ensure that the
2009 State Housing Credit Ceiling is appropriately reduced as required by section 42(i)(9)(A) of
the Code and (2) total grant election amounts to ensure that these amounts do not exceed the
amount authorized by section 1602(b).

b. The grantee shall track the total of credits allocated under Section 42(h)(1) of the Code.

c. The grantee shall ensure that the credit equivalent of all elected grant amounts through 2010,
plus the credits allocated under Section 42(h)(1) of the Code during 2009, do not exceed the
State housing credit ceiling for 2009.

8. Reporting
a. The grantee shall provide periodic reports as required by Treasury. A financial status report
and a project performance report is required on a quarterly basis, due 10 working days after the
end of the quarter. Quarters end on March 31, June 30, September 30, and December 31.

b. The performance report has the following elements on each project receiving a subaward
during the quarter:
    • Name of recipient entity
    • Name of project
    • Brief description of project
    • Location of project: city/county, State, zip code
    • Number of construction jobs created
    • Number of construction jobs retained
    • Number of non-construction jobs created
    • Number of non-construction jobs retained
    • Number of total housing units newly constructed
    • Number of total housing units rehabilitated
    • Number of low-income housing units newly constructed
    • Number of low-income housing units rehabilitated

c. The grantee shall submit any other reports that Treasury deems necessary to comply with
Section 1602 of the Act and American Recovery and Reinvestment Act guidance.

                   Audit of Delaware State Housing Authority’s Payment                    Page 14
                   Under 1602 Program (OIG-14-042)
                   Appendix 2
                   Grantee Terms & Conditions




9. Recapture
a. The grantee shall include in any subaward a requirement providing for recapture to assure that
the building remains a qualified low-income building during the 15-year compliance period.

b. The grantee shall notify subawardees that any amount subject to recapture becomes a debt
owed to the United States payable to the General Fund of the Treasury and enforceable by all
available means against any assets of the recipient entity.

10. Financial Management
a. The grantee must expend and account for grant funds in accordance with State laws and
procedures for expending and accounting for its own funds. Fiscal control and accounting
procedures of the designated State housing credit agency must be sufficient to permit preparation
of required reports and permit the tracing of funds to a level of expenditures adequate to establish
that such funds have not been used in violation of the restrictions and prohibitions of applicable
statutes. Effective control and accountability must be maintained for all grant funds.

b. The grantee shall open a new account (Grant Account) with a financial institution for the
purpose of receiving grant election amounts, for making distributions of grant election amounts
to other agencies within the State, and for making subawards.

c. The grantee must maintain program, financial, and accounting records sufficient to
demonstrate that grant funds were used in accordance with the Section 1602 program and these
terms and conditions. The Treasury as the awarding office, the cognizant Treasury inspector
general, and the Comptroller General of the United States, or any of their authorized
representatives, shall have the right of access to facilities and to any pertinent books, documents,
papers, or other records (electronic and otherwise) of grantees, which are pertinent to the grant,
in order to make audits, examinations, excerpts, and transcripts.

d. The grantee shall minimize the time between the receipt of grant funds and the disbursement
of those funds to subawardees. Federal funds cannot be drawn by the grantee from the U.S.
Treasury in advance of need. The grantee shall not place in escrow or advance lump sums to
project owners. Once funds are drawn from the grantee’s U.S. Treasury account, they must be
expended as a subaward by the grantee within three days, or if grant funds are transferred by the
grantee to another agency, as a subaward by that agency within three days following the date of
transfer by the grantee.

e. The grantee shall promptly return to its Grant Account any subawards returned to the
designated State housing credit agency from subawardees and shall expend returned amounts as
subawards before additional grant amounts are drawn from the Treasury.

11. Disallowance, Suspension, and Termination
a. If the grantee materially fails to comply with any term of the award, whether stated in a
Federal statute or regulation, the terms and conditions herein, in a State plan or application, a


                   Audit of Delaware State Housing Authority’s Payment                    Page 15
                   Under 1602 Program (OIG-14-042)
                       Appendix 2
                       Grantee Terms & Conditions


    notice of award, or elsewhere, Treasury may take one or more of the following actions, as
    appropriate in the circumstances:
•       Temporarily halt cash payments pending correction of the deficiency by the grantee
•       Disallow all or part of the cost of the activity or action not in compliance
•       Wholly or partly suspend or terminate the current award
•       Withhold further awards for the program
•       Take other remedies that may be legally available

    In taking an enforcement action, Treasury will provide the grantee the opportunity for a hearing,
    appeal, or other administrative proceeding to which the grantee is entitled under any statute or
    regulation applicable to the action involved.

    b. The grantee must immediately report any indication of fraud, waste, abuse, or potentially
    criminal activity pertaining to grant funds to Treasury and the cognizant Treasury inspector
    general.

    12. Return of Unused Grant Funds
    a. The grantee shall return to the Treasury by January 1, 2011 any grant election amounts not
    used to make subawards by December 31, 2010. This requirement does not prevent the State
    housing credit agency from continuing to disburse funds to subawardees after December 31,
    2010 provided:
            (1) A subaward has been made to the subawardee on or before December 31, 2010;
            (2) The subawardee has, by the close of 2010, paid or incurred at least 30 percent of the
            subawardee’s total adjusted basis in land and depreciable property that is reasonably
            expected to be part of the low-income housing project; and
            (3) Any funds not disbursed to the subawardee by December 31, 2011 must be returned
            to the Treasury by January 1, 2012.

    Signature

    Under penalties of perjury, I declare that I have examined the terms and conditions in this
    application and that the designated State housing credit agency agrees to and will ensure that
    these terms and conditions will be followed. I declare that I am an authorized official of the
    designated State housing credit agency and am authorized to bind the State housing credit agency
    to these Terms and Conditions.

     Name                                                Title
     Phone                                               Email
     Signature                                           Date signed




                       Audit of Delaware State Housing Authority’s Payment                  Page 16
                       Under 1602 Program (OIG-14-042)
Appendix 3
Delaware State Housing Authority Response




Audit of Delaware State Housing Authority’s Payment   Page 17
Under 1602 Program (OIG-14-042)
Appendix 4
Management Response




Audit of Delaware State Housing Authority’s Payment   Page 18
Under 1602 Program (OIG-14-042)
Appendix 5
Major Contributors To This Report




Donna Joseph, Deputy Assistant Inspector General for Financial
    Management and Information Technology Audit
Colleen McElwee, Audit Manager
Erica Wardley, Audit Manager
Myung Han, Audit Manager
Gerald Kelly, Auditor-In-Charge
Nicholas Slonka, Auditor
Paul Harris, Program Analyst
Aaron Clevenstine, Program Analyst
Adelia Gonzales, Referencer
Vicki Preston, Referencer




Audit of Delaware State Housing Authority’s Payment     Page 19
Under 1602 Program (OIG-14-042)
Appendix 6
Report Distribution




Department of the Treasury

    Assistant Secretary for Management of the Treasury,
     Chief Financial Officer and Chief Performance Officer
    Fiscal Assistant Secretary
    Deputy Assistant Secretary, Fiscal Operations and Policy
    Office of Strategic Planning and Performance Management
    Office of the Deputy Chief Financial Officer, Risk and Control
       Group
    Program Manager, Office of Fiscal Assistant Secretary

Office of Management and Budget

    OIG Budget Examiner

Delaware State Housing Authority

    Executive Director




Audit of Delaware State Housing Authority’s Payment        Page 20
Under 1602 Program (OIG-14-042)
THIS PAGE INTENTIONALLY LEFT BLANK
